<html>
<title> - REVITALIZING U.S.-ASEAN RELATIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                   REVITALIZING U.S.-ASEAN RELATIONS

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2017

                               __________

                           Serial No. 115-30

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-457PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Amy Searight, Ph.D., senior adviser and director, Southeast Asia 
  Program, Center for Strategic and International Studies........     7
Mr. Walter Lohman, director, Asian Studies Center, The Heritage 
  Foundation.....................................................    17
Zachary M. Abuza, Ph.D., professor, National War College.........    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     4
Amy Searight, Ph.D.: Prepared statement..........................    10
Mr. Walter Lohman: Prepared statement............................    19
Zachary M. Abuza, Ph.D.: Prepared statement......................    28

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    56

 
                   REVITALIZING U.S.-ASEAN RELATIONS

                              ----------                              


                        WEDNESDAY, MAY 17, 2017

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. The subcommittee will come to order.
    Members present will be permitted to submit written 
statements to be included in the official hearing record. 
Without objection, the hearing record will remain open for 5 
calendar days to allow statements, questions, and extraneous 
material for the record, subject to length limitations and the 
rules.
    Good afternoon, everybody. As we wait for other members to 
come in, I look forward to hearing from you.
    Still in the early days of a new administration, at a 
tumultuous time in the international affairs and especially in 
Asia, we find ourselves at a point of international uncertainty 
about U.S. policies for engaging with the 10 nations of the 
Association of the Southeast Asian Nations, better known as 
ASEAN. With that in mind, we have convened this hearing to 
evaluate U.S.-ASEAN policies and form a set of recommendations 
that we can deliver to the administration for U.S. relations 
with this important partner.
    As 2017 is ASEAN's 50th anniversary and the 40th 
anniversary of U.S.-ASEAN relations, this is a particularly 
important year to review our engagement with ASEAN and continue 
improving the relationship. ASEAN is Southeast Asia's premier 
multilateral grouping made up of Brunei, Burma, Cambodia, 
Indonesia, Laos, Malaysia, the Philippines, Singapore, 
Thailand, and Vietnam. Collectively, the group makes up the 
world's third largest population and the fifth largest economy. 
ASEAN is a critical diplomatic, economic, and security partner 
for the United States.
    U.S.-ASEAN engagement has trended upwards for years, and it 
remains strong and has a bright outlook. In 2015, the U.S.-
ASEAN relationship was elevated to a strategic partnership. And 
2016 marked two important firsts: The first U.S.-ASEAN summit 
at Sunnylands and the first ever visiting of a sitting U.S. 
President to Laos.
    Our economic connection is also significant, as ASEAN is 
the fourth largest good export market for the United States, 
and we are ASEAN's fourth largest trading partner. As the 
second fastest growing economy in Asia and with a combined 
economy of $2\1/2\ billion,\1\ the importance of ASEAN as a 
market for the U.S. is considerable.
---------------------------------------------------------------------------
    \1\ This number is actually $2\1/2\ trillion and is corrected by 
the chairman later in the hearing.
---------------------------------------------------------------------------
    As a security partner, ASEAN is also invaluable. The 
grouping is strategically located astride some of the world's 
most critical sea lanes, and shares the U.S. pursuit of 
regional stability through rules, order, and peaceful dispute 
settlement.
    ASEAN includes two U.S. treaty allies: Thailand and the 
Philippines. Despite the hugely important interest we share, we 
have come to a period of uncertainty in U.S. relationships. 
Part of this is the natural period of recalculation that comes 
with any new administration, but has been exasperated because 
the rebalance to Asia was, in some respects, a one-legged 
stool.
    Our strategy for engaging Asia, particularly Southeast 
Asia, relied so heavily on the TPP that when the United States 
withdrew, there was not much of a policy left. Uncertainties 
have been heightened further by instability in the region, lack 
of clarity about the administration's America First rhetoric, 
and the increasing competition from China and initiatives like 
its One Belt, One Road policy which challenges U.S. influence 
in the Asia-Pacific region.
    The administration has done fairly extensive early outreach 
to many Asian partners, which should be commended on, but most 
of these conversations have revolved around the nuclear menace 
from North Korea. But our partnership with ASEAN is broader 
than that, a fact that some promising recent statements have 
recognized.
    Vice President Pence spoke extensively about U.S.-ASEAN 
security and economic cooperation during a recent visit to the 
ASEAN secretariat in late April. The Vice President should be 
applauded for this visit and the announcement he made that 
President Trump will attend East Asia Summit, the U.S.-ASEAN 
Summit, and the APEC economic leaders meeting. As we all hear 
from one witness, on the diplomatic front in Southeast Asia, 80 
percent of success is showing up.
    Secretary of State Tillerson also addressed U.S.-ASEAN 
relations in a recent speech declaring the intent to resolidify 
our relationships with ASEAN on a number of security and trade 
issues and clarifying that America First does not mean that our 
national security and economic prosperity comes at the expense 
of others.
    This leadership has been helpful, but we have yet to hear a 
complete policy that will give our ASEAN partners a better 
sense of how the United States will gauge going forward. Our 
influence and interests in Asia are at stake. The nations of 
ASEAN are walking a tightrope between the power centers of the 
United States and China. If the United States withdraws from 
Asia, ASEAN won't be able to stay standing. A monopolar Asia 
would mean less opportunity for the United States to undertake 
valuable economic and security cooperation with ASEAN. In 
short, we need a plan.
    With that, to help us toward this goal, we are privileged 
to be joined by the expert panel this afternoon. I thank the 
witnesses for joining us and members of the subcommittee for 
their participation.
    Without objection, the witnesses' written statements will 
be entered into the hearing.
    I now turn to our ranking member for any remarks.
    [The prepared statement of Mr. Yoho follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
                              ----------                              

    Mr. Sherman. Thank you, Mr. Chairman.
    I welcome this hearing on ASEAN. ASEAN is a very diverse 
area geopolitically. Indonesia and the Philippines have 
practiced democracy for many years; Vietnam and Laos never 
have. I am concerned with ASEAN issues in general, but 
particularly trade, terrorism, and the negative effects of the 
President's proposed 2018 budget cuts to State Department and 
USAID.
    Mr. Chairman, as you point out, this is a very important 
market. Our trade relationship is big. It is important, and I 
might add, extremely unfair. We have seen an increase in our 
trade deficit with ASEAN every year since 2006. It now stands 
at well over $83 billion. That means that if we had balanced 
trade with ASEAN, we would have well more than 1 million 
American jobs.
    Now, given our somewhat tight job and labor market, that 
would mean a rapid increase in wages in this country. But we 
don't have fair or balance trade with ASEAN, most notably with 
Vietnam, where not only do we have to compete against 40-cent-
an-hour labor, but we are told that if we open up, we will get 
free access to Vietnam's markets. Well, Vietnam doesn't have 
freedom, Vietnam doesn't have markets. We have almost a $32 
billion trade deficit with Vietnam, which is not the result of 
free economics. It is not the result of free trade.
    Wall Street can repeat that over and over again, because 
they can make a lot of money jacking up the trade deficit and 
minimizing their demand for American labor. But the fact is the 
decisions on whether to make major purchases of American goods 
or instead those from Europe are political decisions made in 
Hanoi by the Vietnamese Communist Party. To say that we can't 
sell in Vietnam because our goods aren't good, because our 
workers aren't good is an attack against America completely 
unjustified by the facts.
    These are political decisions made in Hanoi which 
understands that the American foreign policy establishment will 
look the other way as they run a huge trade deficit with us. 
They know Europe will not look the other way, so they buy from 
Europe and, I might add, Asia.
    The combatting terrorism. ASEAN countries face local and 
international terrorism. There are over a dozen armed radical 
Islamic groups in the region. We have seen al-Qaeda's influence 
through JI and its affiliates, which are responsible for the 
2002 Bali attacks. While JI's influence has waned, other 
groups, including ISIS, are growing. Malaysia is seeing a 
significant increase in cyber recruitment for jihadist 
organizations. Southern Philippines have six small groups who 
have pledged their loyalty to ISIS. We have the Mujahedeen, 
Indonesia, Timor, MIT group who has pledged its support for 
ISIS. I look forward to hearing from our witnesses what we can 
do to help our ASEAN allies deal with this threat, both to 
themselves and to the world.
    Finally, we deal with trying to maintain America's global 
leadership with the 2018 budget proposal. The State Department 
USAID maintains programs in ASEAN countries which are critical, 
and provide clean water, combat climate change, fight 
proliferation of AIDS, fight counter-violent extremism and 
terrorism. For example, in Malaysia, we have planned 
counterterrorism transnational crime initiatives countering 
weapons of mass destruction proliferation programs; similar 
efforts in Thailand and other ASEAN countries.
    We are working against climate change to which ASEAN 
countries are uniquely vulnerable. Without U.S. development, 
health, climate, and security assistance, the ASEAN region will 
be a less stable area. But it will certainly be a less pro-
American area if we cut back our diplomatic efforts. That is 
why 120 three- and four-star generals and admirals have written 
to House leadership in February urging the U.S. to maintain a 
robust foreign affairs budget.
    We have challenges in ASEAN around the world, and I look 
forward to learning from our panelists how we can best deal 
with those challenges. I thank you.
    Mr. Yoho. Thank you, Ranking Member, and I look forward to 
having that. And I remember the remarks of General Mattis. He 
said: If you cut that foreign aid, we are going to have to 
spend that in ammunition, and I know we don't want that.
    And so with us today, we are thankful to be joined today by 
Dr. Amy Searight, senior adviser and director of the Center for 
Strategic and International Studies, Southeast Asia Program. We 
look forward to hearing from you.
    Mr. Walter Lohman, director of the Asia Study Center at the 
Heritage Foundation. And Dr. Zachary Abuza, professor at the 
National War College.
    We thank the panel for joining us today to share their 
experience and expertise. Our goal is it to take the 
information that you give us, and as we have in the past, we 
have directed foreign policy that we can pass on to the State 
Department or the President to direct our pivot to Asia, and we 
look forward to hearing from you on that. And we have had that 
in the past and have done that with Chairman Royce in the full 
committee. It is so important with your input here, because 
that hopefully will lead to some policies that will make us all 
stronger and more secure.
    Being the chairman of this committee, one of my goals and 
my ultimate goal is it to reach out to that whole Asia-Pacific 
region and strengthen our relationships with all those 
countries, focus on economic and trade and national security so 
that we can keep doing what we do.
    So, Dr. Searight, if you would, press the red button to 
talk and make sure your microphone is there. And we will try to 
hold you to 5 minutes, thank you.

STATEMENT OF AMY SEARIGHT, PH.D., SENIOR ADVISER AND DIRECTOR, 
SOUTHEAST ASIA PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Ms. Searight. Thank you.
    Chairman Yoho, Ranking Member Sherman, and distinguished 
members of the committee, it is an honor to be before you here 
today to discuss the future of U.S. security relations with 
Southeast Asia.
    This year marks the 50th anniversary of the founding of 
ASEAN and the 40th anniversary of U.S.-ASEAN relations, making 
it a natural time to take stock of U.S. ties with Southeast 
Asia and consider ways to improve relations with this 
increasingly important region.
    Southeast Asia is an integral part of the larger Asia 
Pacific that will play a key role in propelling the U.S. 
economy in the decades ahead. ASEAN is at the heart of Asian 
economic integration efforts, and also brings together Asia-
Pacific leaders every year to discuss strategic issues at its 
diplomatic meetings and summits.
    Located at the crossroads between east and south Asia and 
the Pacific and Indian Oceans, Southeast Asia is also 
increasingly a region--an arena in which geopolitical rivalries 
between the United States, China, Japan, and India play out.
    ASEAN centrality in the regional architecture also gives it 
an important normative role to play, and its promotion of norms 
and rules, including the peaceful resolution of disputes and 
respect for international law, in turn help to uphold the 
rules-based order in the Indo-Pacific.
    The strategic rebalance to Asia built on an already strong 
base to further strengthen key relationships and build new 
partnerships. Enhanced defense cooperation agreements with both 
the Philippines and Singapore allow for greater rotational 
access for U.S. Forces to facilities in those two countries. 
The defense relationships with Malaysia and Indonesia are as 
strong as they have ever been. The rebalance expanded U.S. 
strategic options in mainland Southeast Asia, with Vietnam 
emerging as an important partner and Burma being incorporated 
back into the international community.
    Concerns about Chinese actions in the South China Sea have 
created a growing demand signal from many Southeast Asian 
countries for an expanded U.S. security presence in the region. 
U.S. freedom of navigation operations, or FONOPs, in the South 
China Sea are quietly welcomed by most Southeast Asian 
countries, even those whose excessive maritime claims are 
challenged along with those of China.
    There is an increasing demand in Southeast Asia for 
assistance with maritime security capacity building, which has 
led to the refocusing of existing U.S. security assistance 
programs, such as the Foreign Military Financing and Excess 
Defense Articles programs toward maritime security. New 
programs, such as the Southeast Asia maritime security 
initiative, have been created to augment existing programs and 
fill gaps to improve the effectiveness of U.S. maritime 
capacity building efforts with allies and partners in Southeast 
Asia.
    The case for continued high-level and intensive engagement 
with Southeast Asia is compelling, and members of both the 
executive and legislative branches should not hesitate to make 
that case to the American people. Our allies and partners watch 
our strategic messages and policy pronouncements very closely, 
and often shape their policies with an eye on those of the 
United States.
    Given this dynamic, it is important that the U.S. 
Government issue clear and consistent strategic messages, 
particularly on issues like disputes in the South China Sea, 
and avoid inconsistent execution of policies, which can lead to 
confusion and undercut the perception of our resolve.
    Moving forward, FONOPs and routine presence operations 
should be executed on a regular basis in the South China Sea to 
demonstrate our resolve to fly, sail, and operate wherever 
international law allows.
    U.S. defense relationships in Southeast Asia are strong, 
and it is all too easy to fall into the trap of focusing on 
military solutions to security challenges to the exclusion of 
economic and diplomatic approaches. This is a mistake, as 
Southeast Asian countries view security through the lens of 
economic growth and integration, and they place a high priority 
on both their economic and political relationship with the 
United States.
    The U.S. withdrawal from the Trans-Pacific Partnership is a 
step in the wrong direction on this front, and Washington will 
need to devise and promote other ideas and vehicles for 
economic engagement with Southeast Asia in order for U.S 
leadership in the region to remain credible in the long run.
    Things are easier on the diplomatic front in Southeast Asia 
where, in the words of Woody Allen, 80 percent of success is 
showing up. There is no substitute for high-level participation 
and ASEAN-centered regional meetings, which is why the 
President's announcement that he will attend the East Asia 
Summit in the Philippines, the U.S.-ASEAN Summit, and the APEC 
forum in Vietnam this November is so important.
    Reinvigorating restrained alliances with the Philippines 
and Thailand will be job number one for the administration. 
With the Philippines, the United States should strive to 
preserve the alliance to the greatest extent possible, while 
taking a firm position on human rights excesses of the Duterte 
administration.
    In Thailand, the United States should explore whether the 
new Constitution and the tentative preparation for elections in 
the wake of the royal transition provide an opportunity to 
begin resetting ties without rewarding the military government. 
The Departments of State and Defense should immediately resume 
dialogues with Thailand on issues of mutual strategic interest.
    The United States has several enduring advantages that lead 
Southeast Asia to continue to turn to it as a security partner 
of choice, including the world's best military, high 
favorability ratings among most local populations, and a less 
threatening foreign policy than that of China. Given these 
advantages, Washington can continue to play the long game in 
Asia, confident that chinese adventurism is likely to push many 
states to turn to the United States for support.
    Thank you very much.
    [The prepared statement of Ms. Searight follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
                              ----------                              

    Mr. Yoho. Thank you, Dr. Searight.
    Mr. Lohman.

STATEMENT OF MR. WALTER LOHMAN, DIRECTOR, ASIAN STUDIES CENTER, 
                    THE HERITAGE FOUNDATION

    Mr. Lohman. Thank you, Mr. Chairman, Mr. Sherman, Ms. 
Gabbard. Thank you for having me to testify here today. I 
appreciate the time that all of you put into the work of this 
subcommittee. I know especially Southeast Asia is not the 
easiest thing to get attention to, and the work that you have 
put into it is very admirable and very important.
    I am particularly glad that you're taking a closer look at 
the economic component of our policy in Southeast Asia. It is 
every bit as important as the other elements. In fact, it may 
be more important than the other elements.
    I want to make five points here in my summary.
    First, if the strategic goal of the United States in the 
Asia Pacific is to prevent a single power, today China, from 
gaining dominance, it cannot accomplish this on its own, and it 
cannot do it with only a negative agenda. Our efforts to push 
back on objectionable Chinese behavior in the South China Sea, 
for instance, must have a positive context, and economic 
engagement is perfect for that. In fact, ASEAN is best equipped 
to deal with economic issues.
    Number two, whatever you may read in the headlines, the 
states of Southeast Asia are most interested in economics, not 
in conflict. The region is very economically diverse: High-
income countries and developed economies and low to high 
middle-income countries. Some of these countries have severe 
development problems, some are stuck in the middle-income trap, 
others are headed in that direction. Most are in serious need 
of infrastructure investment. But they are all more than 
interested in making money than settling political scores with 
their neighbors.
    Number three, foreign economic involvement in ASEAN is also 
very diverse. The U.S. does not have a dominant share of the 
market, but neither does China or any other single country. 
This is often overlooked when we hear about China being the 
region's leading trading partner. It is the region's largest 
trading partner, but the statement oversimplifies things. And 
we can talk about that a little bit in Q&A if you would like.
    Number four, China is leveraging its economic engagement in 
the region far more effectively than the U.S. is. They are 
making it attractive for countries in the region to set aside 
concerns about China's creeping political dominance in exchange 
for the promise of economic benefits, perhaps to the region and 
individual countries' detriment in the long-term.
    Number five, security guarantees, military presence, and 
diplomacy are not enough. The U.S. must be much more visibly 
and formally involved in the economic life of the region. And 
you are looking for ideas, I just have a few ideas to offer you 
in this regard.
    Number one, we should develop new high standard FTAs. There 
are several countries in the region that would be good 
candidates for this. We have tried with Malaysia and Thailand 
several years ago to no avail. Those are things that we can 
pursue again.
    The second thing is we need to develop options for less 
developed countries in the region, things that are less than 
full-blown FTAs. Everything we do doesn't have to be a complete 
gold standard FTA. Something that Congress can do, actually, 
without necessarily the aid of the administration, at least not 
as a recommendation for the administration, but something you 
can do is look at models like the SAVE Act. There was a bill 
introduced in both houses several years ago called the SAVE 
Act, which would allow Filipino apparel made with American 
fabric to enter the United States duty free. It is a win-win 
for both sides.
    We need to coordinate better with global partners; Japan in 
particular, because Japan actually is very big on 
infrastructure and they are good at it. We don't do 
infrastructure abroad so well. We can work with the Europeans 
much more. They are natural partners. They are people that 
agree with us on values. We have a lot of synergy economically 
with them.
    We need to make a better show of what American companies 
are already doing in the region, and help give them entre to 
foreign leaders that they need to see in order to make 
investments in the region.
    The U.S. should be involved with as many ASEAN meetings as 
possible, especially those involving trade, like the Economic 
Ministers Meeting which happens every year. It will happen this 
year in September, in the fall anyway. Bob Lighthizer should be 
at that meeting.
    Then finally, we should prioritize the U.S.-ASEAN Trade and 
Investment Framework Agreement and ASEAN assistance programs. 
And we can talk about that more too, if you would like. But 
there were several options that both the Bush administration 
and Obama put on the table during their times in office, and 
this administration needs to develop their own suite of 
assistance programs for ASEAN.
    The way the U.S. prevents China from advancing toward a 
dominant position in the region is not just by pushing back on 
bad behavior, but by staying energetically engaged across the 
whole range of interests and keeping the region open to all 
comers. Thank you.
    [The prepared statement of Mr. Lohman follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
                              ----------                              

    Mr. Yoho. Thank you for that. I want to--I really want to 
go back to that when we get to the questioning part because, I 
mean, you both are hitting on something very, very strategic.
    Dr. Abuza, I look forward to hearing from you.

 STATEMENT OF ZACHARY M. ABUZA, PH.D., PROFESSOR, NATIONAL WAR 
                            COLLEGE

    Mr. Abuza. Mr. Chairman, thank you very much for having me, 
and also Mr. Sherman, Representative Gabbard, thank you very 
much for your----
    Mr. Yoho. Can I get you to bring your microphone a little 
closer maybe? Thank you.
    Mr. Abuza. I have to begin with the disclaimer that I am 
here in my own capacity. I do not represent the views of the 
Department of Defense or the National War College.
    Here, in Southeast Asia, when we are talking about peace 
and prosperity, there is so much that we need to talk about in 
terms of counterinsurgency and counterterrorism. Southeast Asia 
and the United States plays a very important role in dealing 
with all of these. And that is a role that China can never or 
will never play in the region. So this is an important counter 
comparative advantage that we have.
    The news in Southeast Asia is actually quite good. I cannot 
think of a region that has had such successful counterterrorism 
operations. You can look to a country like Indonesia. They have 
had some of the most successful counterterrorism in the world 
at the same time that they have helped to consolidate their 
democracy and rule of law. That is something that we really 
need to take into consideration.
    I won't go into all the details of the successes that we 
have seen. I am going to focus on a couple concerns that I have 
down the pike, and you can read more into my written 
statements.
    The first is there are a lot of Southeast Asians who would 
like to get to Iraq and Syria. There is no shortage there, but 
it is a logistical issue. There are backlogs. The good news is 
that we are getting a lot of cooperation within the region 
amongst the security services.
    The second thing that really concerns me is that compared 
to Jemaah Islamiyah, the al-Qaeda-based group, the pathways to 
recruitment into IS in Southeast Asia are much more diverse. In 
Indonesia, they follow traditional networks that JI relied on, 
but in Malaysia, you will see that they--also much more online 
recruitment. IS is able to recruit across the socioeconomic 
spectrum.
    Another thing that is very different is their use of women. 
JI never used women in this role or in any role in terrorism. 
IS has employed women as key recruiters, indoctrinators, and 
more recently, attempted suicide bombers.
    Third, although there have only been a few, three or four, 
Indonesian suicide bombers in Iraq and Syria, there have been 
seven or eight Malaysians. The genie is out of the bottle, and 
this does play into the hagiography that trickles back into 
Southeast Asia.
    Speaking about trickle backs, Southeast Asians are starting 
to trickle back. There were an estimated 1,000, 1,200 Southeast 
Asians who went to Iraq and Syria. That is down dramatically. 
They weren't all combatants. They brought a lot of their family 
members, wives and children, enough that they opened up their 
own school, Bahasa language school. But they are starting to 
trickle back.
    Malaysia has tools at its disposal to deal with this. They 
can arrest people, detain them without trial, which is 
problematic in other ways. Indonesia does not. And that is 
something they are debating now. It is something that we need 
to be concerned about in terms of their own consolidation of 
democracy.
    Let me move on, though, to what I consider the biggest 
concerns, and that is the security situation in the southern 
Philippines. Since the collapse of the peace process with the 
Moro Islamic Liberation Front, the southern Philippines has 
once again become kind of a black hole for Southeast Asia, not 
just a domestic security concern, but one that impacts the 
entire region. There a number of different groups, small cells 
that have pledged allegiance to IS. Most of this has been for 
marketing tools or I would say rather than a pure affiliation 
and command and control. But it is important to note that the 
southern Philippines once again is attracting militants from 
around the region to train and regroup, including Bangladesh.
    The last thing that I would focus on is the rise of the Abu 
Sayyaf once again, and not just the kidnappings that we have 
seen and the gruesome beheadings of Westerners. What is really 
impacting this is the maritime kidnappings. Since March of last 
year, there have been 19 separate maritime operations going 
after fishing boats, barges, tramp steamers in the region. This 
has really impacted regional trade, and it is showing no signs 
of ending.
    The last point that I would be concerned about and what we 
need to work with our ASEAN partners on is the desperate 
situation of the Rohingya in Bangladesh. This is a situation 
that is ripe for exploitation. Thank you.
    [The prepared statement of Mr. Abuza follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
  
                              ----------                              

    Mr. Yoho. Thank you all for the great testimony. It such an 
important area, and as we have seen, we know that whole 
theater--there is 85 percent of the world trade goes through 
the South China Sea. With the pivot that we supposedly had to 
the Asia-Pacific area, it didn't happen the way it should have. 
We look forward to this administration clarifying its America 
First policy. I think what we see with that, we can't be first 
if we don't help our neighbors and our partners. And I think 
that is what you will see coming out here.
    I misspoke when I did my opening testimony. When we were 
talking about the size of that region being the third most 
populous with, I think it is 600 and some--630 million people, 
it is the fifth largest economy, and I said it was $2\1/2\ 
billion; it is $2\1/2\ trillion. Just a mistake of a few zeros. 
But it is such a large area.
    Then I guess some of my questions are, the first one, in 
your experience, what would be a way to rein in the trade and 
the trust or to get that trade back that we lost with the 
anticipated TPP, which wasn't going to pass the House? 
Everybody wants to blame this administration, but it wasn't 
going to pass the House and the Senate the way it was prior to 
that.
    I am glad, Mr. Lohman, you brought up strong free trade 
agreements. I am happy to say we have done letters of strong 
free trade agreements already with Taiwan, Japan, and Vietnam 
out of this committee. One of them came out of another 
committee we did jointly, because we see that as a way of 
making that relationship stronger. I think the bilateral or 
even multiple bilaterals or trilaterals. What are your thoughts 
on that and how would you expound on that? And what countries 
would you pick?
    Because if you look at like South Korea, South Korea is one 
of our largest trading partners. And then we have other trading 
partners. When I look at that and I try to figure out why does 
South Korea become so successful at trading, and then you see 
like Vietnam and some of the other countries becoming stronger 
in trade with us, what is it about their government, about 
their rule of law, about their society that allows one country 
to become successful and large trading partners where the 
others don't? Who would you target initially?
    Mr. Lohman. Well, we have already targeted the freest 
economy in the region, which is Singapore. And I will point out 
that Singapore is the only country in the region that the 
United States runs a trade surplus with.
    Mr. Yoho. Right.
    Mr. Lohman. It is the only country that we also have a free 
trade agreement with. So I do think free trade agreements are a 
vehicle to sit down and work through these issues with the 
countries in question. If you are not sitting with them and 
talking about these problems, you are not going to address 
them.
    Now, you could argue about the substance of those 
agreements and how tough our negotiators are, but if you don't 
sit down and talk with them, you are not going to fix anything.
    I do think Vietnam is a good candidate. Vietnam signed on 
to the TPP, and by all accounts they are going ahead and making 
the reforms that were required by TPP anyway. So they certainly 
see a connection between economic freedom and prosperity and 
becoming a free trade partner.
    Malaysia is a good candidate. Like I said, we got maybe 90 
percent of the way there or 85 percent of the way there during 
the Bush administration. We couldn't close the deal.
    Thailand, you know, there are some political things we want 
to think about with regard to Thailand, but still Thailand 
would be a good example.
    But as I pointed out in my testimony, I think there are 
things that we could do that are not full-blown trade 
agreements. FTAs take years to accomplish, very complicated, 
they are very costly in domestic political terms for some of 
these countries. We could do much smaller things that would 
benefit our profile in the region and economically would 
benefit both of us. That is why I point to the SAVE Act, not 
necessarily for the Philippines, though it could be for the 
Philippines; not necessarily for textiles, although it could be 
textiles. But that idea of a limited agreement on certain 
sectors that would benefit both sides.
    Mr. Yoho. Dr. Abuza, do you want to weigh in on that?
    Mr. Abuza. I am no expert in trade. But let me make one 
point about the TPP: I am agnostic on that as a trade 
agreement. I can't even pretend to understand the complexity of 
it. But countries like Vietnam really viewed the TPP, or 
Singapore viewed the TPP, in many ways as the Obama 
administration did, much more than a trade deal; that it was a 
strategic anchor, something that committed the United States to 
the region.
    And now that the Trump administration has taken that off 
the table, it really did lasting damage to the perception of 
United States reliability in the region.
    I just got back from Vietnam and had very high-level 
meetings across the government, the Communist Party, the 
military. They are just agog because they really wonder what 
that says about how long our commitment to the peace and 
stability in the region over the long term.
    Mr. Yoho. Point made. And that is why it is so important to 
have this meeting, so we can figure out what is the best way to 
go. I think the free trade agreement--because we want them to 
know that we are back, that we are here, that we are going to 
be strong allies. I think we are going to have time, if you 
guys have time, to do two rounds of questioning. I want to come 
back to you Dr. Searight.
    But at this time, I am going to turn it over to my ranking 
member, Mr. Sherman.
    Mr. Sherman. Dr. Abuza, countries that want to run up huge 
trade surpluses with us, in effect, take our jobs, will always 
tell us that, boy, if you give us all the jobs, or better yet, 
tell people not to notice that we are taking all the jobs, we 
will be great military strategic partners. We really need you 
involved.
    So you tell us Vietnam really wants us involved and they 
are disappointed with TPP. Are they willing to enter into an 
agreement with us that mandates balanced trade flows as an 
essential element of such trade agreement or are they only in 
favor of a strategic military alliance, as long as they get to 
take more of our jobs?
    And am I--you know, it is possible you have had no 
discussion on this, but is there any evidence that they are 
willing to have balanced trade because they want us so involved 
in their region?
    Mr. Abuza. Again, I----
    Mr. Sherman. If you don't know, you don't know. I will 
regard that as a rhetorical question, and I will move on to Mr. 
Lohman, unless--you are for the SAVE Act. Obviously, that would 
help to some degree those who make fabric in the United States. 
It would cost us jobs among those who make garments here in the 
United States. Every analysis I saw, and there weren't many, 
said it would cost us jobs and increase our trade deficit.
    Are you aware of any study that says that that Act would 
increase jobs in America or reduce our trade deficit, or are 
you just philosophically in favor of such a bill?
    Mr. Lohman. No. But I do recall studies by retailers of the 
United States.
    Mr. Sherman. Oh, yes, retailers are in favor of cheap 
imports, yes.
    Mr. Lohman. But retailers also provide jobs. Working at 
Walmart is not----
    Mr. Sherman. If you believe that the way we can increase 
jobs in America is to reduce our manufacturing and make it up 
by having more malls----
    Mr. Lohman. We were just talking about a tiny bit of----
    Mr. Sherman. Well, obviously, the SAVE Act is not the most 
important piece of legislation ever submitted to Congress. It 
will have a slight effect one way or the other. And that effect 
will be negative on jobs in the manufacturing sectors of the 
United States.
    But I want to move on to an area where Dr. Abuza has more 
background, and that is the Christian Governor of Jakarta, who 
was found guilty on charges of blasphemy. It is one thing to 
have terrorists to cooperate with the Government in Jakarta to 
deal with terrorist groups that they are dedicated to opposing. 
It is another thing when the government engages in what can 
only be called an act of terrorism against one of the leaders 
of its own government.
    What can be done to deal with this outrageous 2-year 
sentence and to be done with the idea of if not the level of 
freedom of religion that we have here in the United States, at 
least not the--this level of oppression?
    Mr. Abuza. The blasphemy laws actually have been on the 
books for a number of decades. It actually was enacted under 
Suharto.
    Mr. Sherman. Uh-huh.
    Mr. Abuza. It has been increasingly abused. It was there 
for many years. But certainly, since you have had the rise of 
democracy since 1998, you have also had the rise of Islamist 
politics in Indonesia. I just hate to say it, but there is good 
politics in this, and no one seems to be willing to stand up 
and defend religious minorities right now. There are just not 
votes in it.
    I am very concerned right now----
    Mr. Sherman. Is the average Indonesian citizen aware of the 
adverse effect that can have on Indonesia's relationship with 
the rest of the world?
    Mr. Abuza. Indonesia has this wonderful tradition of 
pluralism, syncretic Islam, but that is changing. It is a less 
tolerant place. There is more fundamental Islam Wahhabism or 
Salafism is growing in the country.
    Mr. Sherman. If I could interrupt, is one of the reasons 
for that funding of extremist ideological--not terrorism but 
ideological Islam out of Saudi Arabia and the Wahhabi movement?
    Mr. Abuza. That has been a very important part of this. The 
Saudis have a foundation in a university, known as LIPIA, that 
continues to fund scholarships and madrasas. Yes, this is 
happening all the time. And it is not just them, it is from 
other Gulf States.
    But one point, American--you know, after Suharto fell and 
you had free speech and democracy restored, in many ways the 
pendulum swung too far, and you had the rise of what are often 
referred to as anti-vice organizations. They are basically 
Islamist vigilante groups. The most prominent one is the FPI 
right now that led these mass demonstrations starting in 
December against the Christian Governor of Jakarta, Ahok.
    I think the Indonesians, their democracy is fairly well 
consolidated now. I think it is time that we start to put a 
little more pressure on them to say, listen, every country that 
has free speech also has some limits on free speech, and 
incitements of violence is not protected free speech. They have 
got to start to address this or this is going to be part and 
parcel of the 2019 Presidential election.
    Mr. Sherman. I yield back.
    Mr. Yoho. Thank you.
    Ms. Gabbard from Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Dr. Abuza, I want to follow up on Congressman Sherman's 
questioning and some of your statements about how ISIS is 
recruiting across the socioeconomic spectrum, in particular 
focusing on women where that hasn't occurred before. What are 
their tools for recruitment? Because this evidence of 
recruiting across the socioeconomic spectrum is something that 
is, unfortunately, kind of dismissed often when people talk 
about who are ISIS' recruits most likely to be. So if you can 
expand on that a little bit.
    Mr. Abuza. So during the period of Jemaah Islamiyah in the 
2000s, the best determinant of who became a member were who 
your father was, who your brother was, what madrasa you studied 
at, and what mosque you attended. You were tied to the 
community, and it was a very slow and gradual process.
    What they found--the security forces in Malaysia and 
Tunisia found is that because IS does so much of their 
recruitment online, it is given a special role for women to 
play as recruiters, as indoctrinators, people actually goading 
people to go and travel. Southeast Asian women who have 
traveled to Iraq and Syria to serve as nurses, who are to marry 
jihadists over there have played really important roles on 
social media in leading this charge.
    The Malaysian police have really found that almost every 
major cell that they have disrupted had a woman as one of the 
key recruiters, indoctrinators, or money people. So they are 
just being empowered in different ways.
    Recently, in Indonesia, the authorities arrested a woman 
who had already been recruited to be a suicide bomber. That 
would have been a first in Southeast Asia. So the precedent is 
there.
    Ms. Gabbard. If the promise is not money, it is not 
security, it is not stability, what is the promise? What is the 
message they are using for recruiting?
    Mr. Abuza. It is commitment to the cause. It is a pure 
ideologically driven commitment to forward the glory of Islam.
    Ms. Gabbard. So how is it that I think you mentioned in 
Indonesia, you mentioned great progress or gains in 
counterterrorism. How do you match that with your other 
statement about the rise of Wahhabism and extremism within 
Indonesia that is having these other impacts, of course, 
politically as was mentioned, but also with the increasing 
numbers of people who would be receptive to ISIS recruitment?
    Mr. Abuza. The numbers of Wahhabis in Southeast Asia is 
probably about 10 percent, but it is growing. There is a debate 
within the counterterrorism field that people in the Salafi 
community might be the best antidote as long as they are 
quietest and they are not espousing violence. They simply have 
their social agenda. I personally am not so convinced of that, 
but it is one that you do hear a lot, that these are the people 
best able to challenge the ideology of ISIS.
    Ms. Gabbard. Are you aware of any examples of that in the 
world?
    Mr. Abuza. Well, let me give you a different example. So 
since 2010, JI as a militant terrorist organization has really 
been defunct, and the Indonesian Government has given members 
of JI inordinate amount of space to go out, proselytize, run 
their mosques, run their madrasas, engage, as long as they are 
not targeting civilians or engaging in violence.
    You know, it makes me think, is this just a tactical good 
time to lie low as they watch their strategic rival IS take the 
abuse, take the punishment, get the arrests, and they are 
waiting in the wings to pick up the pieces in another few 
years? So I am not sure this is the best thing to do. Our best 
hope is that Indonesia's very rich civil society in moderate 
Muslims are able to withstand this cultural invasion of 
Wahhabism.
    Indonesian Islam really is syncretic. It has been on the 
back foot in the past few years just because some of it is 
anger toward the United States. For example, the war in Iraq in 
2003 was wildly unpopular in Indonesia. That certainly did not 
help moderates in the country. But I really--I do believe that 
there is a rich cultural resilience in Indonesia.
    Ms. Gabbard. Thank you.
    Thank you, Mr. Chairman.
    Mr. Yoho. If we do have the time, we can go around a second 
round.
    I just want to go back to the U.S. trade. I think Singapore 
is a good example. If you look at how we started--and my goal 
is to have this with other countries in there as you talked 
about. The U.S.-Singapore trade of FTA goes into effect in 
2004. Trade surplus in 2003 was $1.4 billion. Today it is $9.1 
billion. Our goal is to have balanced trade as important as it 
is free trade agreements. If we can repeat that model over and 
over again, I feel us building stronger, a stronger alliance 
and unity in that area to stave off China, because we see what 
China is doing in the South China Sea.
    The reports, and we already have known this, that they are 
weaponizing those islands. And of course, there is a cause and 
effect. They are doing that, now Vietnam wants to do it. If 
Vietnam does it, the next country is going to want to do it, 
and it builds, it creates an instability in that area where we 
really should be focusing on the economic trades.
    Dr. Searight, you were talking about--you testified about 
the inconsistent execution of policies with an on again, off 
again FONOPs being the best example. How do we best solve this? 
What specifically should the administration do differently?
    I commend them for going down there and putting an 
emphasis, Mike Pence and President Trump going down there. So I 
would like to hear what your thoughts are on that.
    Ms. Searight. Well, I do think engagement as we saw with 
the Vice President's trip is very important. But I would say 
that when it comes to being clear and consistent on key issues, 
like the South China Sea, I think it is very important for this 
administration to devise a strategy to really put some thought 
and effort into thinking through what our core interests are 
and what options we have and how to weave that together into a 
real strategy, and then go out with allies and partners, 
ideally, and articulate our interests and our approach and 
have--and then as I said in my testimony, things like freedom 
of navigation operations and routine presence operations. I 
think it is very important to be consistent in executing them 
and to be very clear about the reason why we do things like 
freedom of navigation operations. It is because we have a core 
interest in freedom of navigation. We should do it 
consistently, regularly wherever international law allows and 
not buy into the Chinese narrative that conducting freedom of 
navigation operations is provocative by having a consistent 
baseline of regularly executing them like clockwork and not 
pulling them down and ratcheting them back up or thumping our 
chests before or after we do them, but just be very low key and 
consistent. I think that would go a long way in demonstrating 
our resolve and upholding a core principle to the United 
States.
    Mr. Yoho. Let me ask you this, because what we see is an 
aggressive China. Mr. Lohman, you were talking about the U.S. 
can't accomplish this on its own; we need multiple nations and 
the cooperation of them. China is doing what they can and they 
are leveraging their economic clout, and they are doing that 
because they can, they are cash rich. We are distracted, our 
foreign policy--I have been a critic of it for the last 20, 30 
years. I think we are way off course, and we really need to 
focus.
    But when we see an aggressive China claiming areas that 
historically have been kind of sovereign areas or open areas, 
and then you have the arbitration court ruling against them on 
their claim to the South China Sea. Yet the world stood by 
while they built island after island, over 4,000 acres, 
building military complexes and runways. We know what they are 
doing and we know what the intent is, but yet the world stood 
by, we stood by.
    How do you stop that at this point and what effect will 
that have on the ASEAN countries? Because we know China is 
trying to partner up with them too. We saw what the Philippines 
did, and they don't like what China is doing, but they are 
like, well, we are going turn a blind eye to it. If we all turn 
a blind eye to it, they are going to rule that area. What are 
your thoughts on that?
    Ms. Searight. Well, I do think it is very difficult to roll 
back the things that China has done, and it is also going to be 
very difficult to stop them from further developing these 
outposts and militarizing them. I think it is important for the 
United States to demonstrate commitment to staying engaged. 
Again, as is often said the United States does not take a side 
in a particular dispute, but it does take a very strong 
position on how the dispute should be resolved. They should be 
resolved according to noncoercion and respect for the rule of 
law, which is why the arbital tribunal ruling is so important.
    We basically--the United States stands for a rules-based 
order that allows countries to make choices freely and not be 
bullied by other countries. I think just continuing to express 
those principles and backing them up by high-level, consistent, 
strategic engagement across the range of government tools is 
really important.
    Mr. Yoho. Thank you. I want to question, and whoever feels 
best to answer this, we are talking about the specific areas 
and specific sectors, whether it be infrastructure, telecoms, 
energy, et cetera, that you believe could serve as an 
opportunity for greater economic cooperation between the U.S. 
and the ASEAN countries. If you could pick a sector, would it 
be energy, telecoms, semiconductors? What would it be, just 
real briefly, if you can answer that?
    Mr. Lohman. Well, I think the most crying need in ASEAN is 
infrastructure, transportation and the like. Energy is a big 
issue for them. The United States companies aren't that big on 
doing infrastructure abroad, but we do have partners that do 
it. The Japanese, for instance, they have very serious plans 
for infrastructure investments in Southeast Asia, and they are 
making those investments, so we can coordinate with them more 
on that. Energy, we have a little bit better position to do 
energy investments, but those are also things we could partner 
on in the region.
    Mr. Yoho. Okay. We will go back to Mr. Sherman. Second 
round.
    Mr. Sherman. Yes. To listen to the United States on these 
little islets in the South China Sea, you would think that this 
was the only maritime dispute in the world. There is no oil on 
these islets. They are just an excuse for two nationalistic 
governments, the U.S. and Beijing, and perhaps some others, to 
beat their chests and find something to fight about.
    But there is a maritime dispute that actually is a maritime 
dispute for practical reasons, and that is the one between East 
Timor and Australia. Should we--and are any of our witnesses 
familiar with that dispute?
    Okay. I will just make the point that it illustrates the 
fact that the U.S. has chosen and our foreign policy 
establishment has chosen to ignore dozens of important maritime 
disputes, but it meets the needs of both the U.S. and Chinese 
military establishments to wildly exaggerate the importance of 
the little islets in the South China Sea. I don't know if Mr. 
Lohman has a background on that.
    Mr. Lohman. I could just comment on the comparison. I mean, 
the South China Sea, so much attention is focused on it because 
it is so important strategically.
    Mr. Sherman. I will back off that. The exaggeration, you 
perhaps are unfamiliar with my comments in this room, so I will 
bore my colleagues.
    Yes, trillions of dollars of trade goes through the South 
China Sea, almost all of it in and out of Chinese ports, and if 
China had the strategic power that they are alleged to be 
seeking, they could blockade their own ports. In addition, 
there is some oil from the Middle East that goes through some 
of the disputed areas, which could at a cost of less than 1 
cent a gallon to Japanese consumers be routed far away from 
that. So it does meet the needs of those that want to see an 
expansion of military tension or at least military expenditures 
to say that we are protecting trillions of dollars of free 
trade. That is all--you know, as I say, it is in and out of 
Chinese ports.
    So whereas there really is oil in the disputed territory, 
and natural gas too, between the Timor and Australia, but since 
no one can use that dispute to justify an increase in 
nationalistic passions or Pentagon expenditures, no one in this 
room has looked at it, except I looked at it just a little bit.
    Dr. Abuza, which countries in the ASEAN region are most 
likely to have this influx of ISIS fighters as they trickle 
back? And a related question is, should we be doing more in the 
area of broadcasting to reach out to the populations, 
particularly Islamic populations, in Southeast Asia?
    Mr. Abuza. In sheer numbers, Indonesia has the largest 
numbers of Southeast Asians.
    Mr. Sherman. Are they from any particular part of 
Indonesia, Aceh, or anywhere else?
    Mr. Abuza. It is concentrated in three different islands: 
Central Sulawesi, Java, and parts of Sumatra. On a per capita 
basis, Malaysia has far more members who have gone there. It 
tends to concern me because I don't think that Malaysia has the 
social resilience to deal with an attack the way Indonesia 
does. You know, you think about the January 2016 IS attack in 
Jakarta. That was up and running--the shop was up and running 
the next day. The Indonesians moved on. I think any attack in 
Malaysia would just be--I think the government would overreact. 
I think it would just cause a lot more problems there.
    In terms of people coming back, we have to think about, 
because the countries have gotten very good about sharing 
flight manifests, Malaysians traveling through Indonesia to go 
to Turkey and vice versa, we have got to work closely with 
Thailand and other countries that these people would be 
transiting through.
    Mr. Sherman. What about our broadcasting efforts? Any 
comment on that?
    Mr. Abuza. We should support this, but this is stuff that 
should be done by the Malaysian and Indonesian Governments. 
They have both set up countermessaging centers with the United 
States' assistance. In some ways I am angry and disappointed 
that we allowed it to be two different bilateral centers rather 
than kind of forging more regional cooperation in this. And I 
hope that the United States----
    Mr. Sherman. But it shouldn't be a voice of America. It 
should be the voice of Indonesia or a voice of Malaysia?
    Mr. Abuza. There are things that we do. I am a huge fan of 
something that Radio Free Asia does called BenarNews. One of 
the things that they are focusing on is saying a lot of this 
militancy just doesn't get good coverage in their countries, 
and so they engage in fairly long-form journalism to go into a 
little more detail about these operations. I think that is 
wonderful bang for the U.S. taxpayer buck.
    Mr. Sherman. Thank you. I yield back.
    Mr. Yoho. I will next got to Mr. Scott Perry from 
Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Keeping with the line of questioning Mr. Sherman was just 
going through, how do you characterize the risk of ISIS or just 
the radical Islamist terrorism, if you will, those 
organizations in Southeast Asia? Like, how do you characterize 
the risk, if you could?
    Mr. Abuza. Manageable.
    Mr. Perry. Manageable?
    Mr. Abuza. Yes. The threat is there. I don't want to 
overstate it. I think we will see political violence as a fact 
of life in Southeast Asia for some time to come. I don't see 
that going away. But I have a lot of confidence in the security 
services in the region. They have done a very good job.
    Compared to where they were in 2001, 2002, they have been 
very proactive and involved. They have not overreacted. I think 
they have very good intelligence on the ground. More and more, 
there is better cooperation between the governments that no 
longer--you know, 2002, 2003, any intelligence sharing really 
required the intervention of senior political leaders to make 
it happen just because the security services tended to be very 
mistrustful of one another. That is not the case now. There is 
just a lot of routine sharing of information cooperation 
between them, so it is a manageable threat.
    Mr. Perry. So while they are individually and maybe 
collaboratively managing the threat, is there anything that 
organizations such as ASEAN is doing or should be doing? I just 
want to get a little more granularity to what Mr. Sherman--and 
is there a different cultural awareness or viewpoint toward the 
radicalism or fundamentalism, I mean, especially in places like 
Malaysia, as you noted, the largest Muslim country in the area? 
I mean, is there a different cultural viewpoint regarding 
security than, say, what we have or Europe has in this regard?
    Mr. Abuza. They take security very seriously because they 
are concerned about economic growth and prosperity, and it is 
very hard to attract foreign investment when the bombs are 
going off. So your first question was about the----
    Mr. Perry. About other organizations, what they are doing, 
what they should be doing. Is there a collaborative effort or 
is it essentially individual nation efforts in collaboration?
    Mr. Abuza. ASEAN as an umbrella organization holds annual 
chief of police and chief of intelligence and chief of defense 
meetings, so there is that level of coordination that ASEAN can 
do. It breeds familiarity, working relationships. But ASEAN 
itself does not get involved in actual security operations.
    Mr. Perry. Okay. Let me shift gears here a little bit. I 
don't know if I have enough time to talk about China. Just in 
referring to the good gentleman from California's assertions, 
maybe I will put it that way--I happen to believe that the 
Chinese construction of the islands and militarization and 
provocative actions are problematic, not from the standpoint of 
two nationalistic governments, but I don't think the United 
States wants to do any more than it has to or should to 
maintain sea lanes and keep everything open in that regard and 
safe. But I think China is doing what they are doing, and we 
are going to be forced to react, not that we want to. We don't 
want to send the military. We don't want to do any of this 
stuff, but I don't think we can let them just continue to be 
engaged in that activity, because I think it will beget more 
and more difficult activity to deal with. So let me just make 
that statement.
    Now recently, the President invited the Thai Prime Minister 
and the President of the Philippines to the White House to 
discuss cooperation regarding North Korea. I am just wondering, 
you know, as China is, I think, an 80 percent trading partner 
with North Korea, somebody has got to do the other 20 percent I 
suppose. But what role can you see these countries playing in 
addition to maybe other ASEAN members to counter North Korea? 
Do they have a functional role, the Philippines, Thailand? Do 
they have a functional role in North Korea in this regard? 
Anybody.
    Ms. Searight. You know, it is interesting that Thailand and 
the Philippines do trade with North Korea. They are ranked 
fourth and fifth respectively in terms of imports from North 
Korea, and many countries in the region have diplomatic 
relations with North Korea. So there certainly is more that 
many of these countries can do to really enforce sanctions and 
perhaps curtail diplomatic efforts. Also, ASEAN as a group, as 
a grouping, having ASEAN support for putting out strong 
statements criticizing North Korean provocations I think is 
very important, and I think we have seen even more backbone 
recently among ASEAN countries to really put out tough 
statements because of the poisoning of Kim Jong-un's brother in 
Malaysia. And so Malaysia, Vietnam, you know, many of these 
countries are quite upset to get pulled into this----
    Mr. Perry. With the chairman's indulgence just for a final 
followup here, the harsh rhetoric, so to speak, I guess it is 
nice, so to speak, from our standpoint. We like to see that 
isolationism but do you think it affects the leader of North 
Korea tangibly? He doesn't seem to be affected by any of that. 
In my opinion, it looks like only tangible things. He almost 
revels in being a pariah and being downcast by his neighbors or 
anybody else.
    Ms. Searight. Well, I think the regime does depend to some 
extent on having access to a number of countries and being able 
to----
    Mr. Perry. Yeah, but the harsh statements alone----
    Ms. Searight. Right. That is not going to be sufficient. It 
is not a sufficient condition. But can I make one other point, 
which is, I think it is a little bit unfortunate that the 
framing of the President's phone calls and invitations to these 
leaders to come to Washington, the narrative that emerged with 
this was all about building a coalition against North Korea. I 
don't think that was the primary motivation. North Korea is an 
important issue that the President should talk to these 
countries about, but it is one of many, many of the other 
issues that we have been talking about today. Economics, 
security relationships, counterterrorism, are more important to 
these countries and their interests and to the dynamics in the 
region than focusing on North Korea.
    So North Korea is an important issue. It should be 
discussed. ASEAN plays an important role in, again, kind of 
pointing out normative statements against North Korea and 
convening other powers to build a coalition, but it is not the 
main issue between these countries.
    Mr. Yoho. All right. Thank you.
    I am going to give the ranking member a few seconds here to 
clarify a statement, then we will go to Ms. Gabbard.
    Mr. Sherman. I want to make it clear, China's actions in 
the South China Sea are wrongful. They are important. They are 
just not quite as important as everybody else thinks they are.
    I yield back.
    Mr. Yoho. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you.
    I would like to follow up on the topic of North Korea. Dr. 
Searight, I represent Hawaii, and every time North Korea 
conducts another missile launch, another missile test, and 
every time my constituents see and hear about their continuing 
increased capabilities, we become more and more concerned about 
the threat that is posed. So even as some of the ASEAN 
countries may not think that North Korea is a very important 
issue, it is to our country.
    Beyond sanctions, beyond the ASEAN countries enforcing 
sanctions and beyond making statements, do you and to others on 
the panel, how do you feel ASEAN as a whole can be most 
effective in moving North Korea toward the ultimate objective 
of denuclearization?
    Ms. Searight. Well, again, I think ASEAN does have a role 
to play. It is a convener of leaders in the region. It plays a 
very important coordinating role and a normative role in really 
articulating the expected rules and norms of behavior. There is 
work that individual countries can do to toughen some 
sanctions, I think, but I don't think ASEAN is the key to 
dealing with the North Korea situation. I mean, I think other 
countries in Northeast Asia, starting with China, but working 
with Japan and South Korea, our allies, and Europe, is 
ultimately going to be more important, and Russia as well.
    Mr. Abuza. I do think Southeast Asian countries do play a 
role in this. If you think about what keeps this regime alive, 
the funding they rely on, this often comes through Southeast 
Asia, through unregulated banking across the region. We 
certainly could put more pressure on them and more cooperation 
with their financial intelligence units to go after North 
Korean money laundering. A lot of precursors for the drugs, 
methamphetamines that are produced by the North Korean regime, 
are made in Southeast Asia or India and transit through 
Southeast Asia. I can think of several cases in which these 
were seized in Southeast Asian ports in the past, so we could 
get more cooperation in port security there.
    The Proliferation Security Initiative, the interdiction of 
North Korean vessels at sea, we can get more support from 
Southeast Asian nations to help with this in terms of the types 
of training we do with their navies. These could be scenarios 
that we could do. I will leave it at that.
    Ms. Gabbard. You know, for a long time now, everyone has 
talked about China kind of being the strongest leverage point 
in getting North Korea to change their behavior, come to the 
table, or whatever the case may be, but even with China's kind 
of heightened criticism of North Korea's antics and North Korea 
appearing to thumb their nose at China, what impact do you 
think that has on the current path forward that our State 
Department is taking? And, secondly, given the heightened U.S.-
Russia tensions, what is Russia's role likely to be here? Is it 
to share the objective that we have in denuclearization or to 
perhaps work more with North Korea?
    Mr. Lohman. Well, I think when the administration was 
considering this policy of really pressing the Chinese--
actually, not so much pressing them, but relying on them to 
take a lead on this North Korea issue, had they called in 
almost any expert in town and asked them whether this would 
work, they would have been told, no, it won't work. The Chinese 
won't do this of their own volition, and they won't do it for 
you.
    The only way the Chinese are going to do anything on this, 
and their cooperation is absolutely essential, the only way 
they are going to do anything is through a great deal of 
pressure: Third-party sanctions on their companies, calling on 
them to crack down on the interaction that they do have with 
North Korea that is already prohibited by the U.N. Security 
Council. That is the only way to get cooperation from the 
Chinese.
    Ms. Gabbard. Nothing else. Thank you.
    Mr. Perry [presiding]. Well, the ranking member is done. 
Maybe I do have a final question here since I am here in the 
chair.
    So the implications of Chinese economic activities in the 
area, including the Belt and Road Initiative, the Asian 
Infrastructure Investment Bank, and other Chinese efforts to 
promote infrastructure development within ASEAN, as these 
expand, these initiatives, what are the implications to 
American foreign policy in the region with those, if you have 
any thoughts?
    Mr. Lohman. Well, first of all, I think that we 
underestimate our own resources. We have more resources than 
the Chinese do to invest in the region, trade with the region. 
It is just that the decisions are made in boardrooms in the 
United States. They are not centralized like they are in 
Beijing. We are a much bigger investor in Southeast Asia than 
the Chinese are. The EU is bigger than all of us. Japan is 
bigger than China. So I think we underestimate how much we do 
have there.
    That said, I think the OBOR project is real. Some of the 
coverage of it, some of the commentary that it is going to go 
away, that it is really not all it is cracked up to be, I think 
is misguided. It may not spend $1 trillion in total, but if it 
spends $\1/2\ trillion, that is still a lot, right? I think 
ultimately the challenge it presents the United States is that 
it causes other countries in the region to soft pedal their 
political concerns because they have an opportunity to bring in 
this investment.
    The Chinese play it up so much. They bring Duterte to 
Beijing. They give him $24 billion in investment. It doesn't 
matter that they are a relatively small investor in the 
Philippines in the overall scheme of things. They are grabbing 
the headlines. They are creating the narrative, and I think 
that will cause the countries in the region to back off on the 
things that are most important or that are important, like 
South China Sea. That is why Philippines backed up, because 
they are interested in that investment, and it is not really 
worth the trouble to press the Chinese so hard if they can also 
get benefits by staying quiet about it. I think it is similar 
to what has happened in Malaysia. Throughout the region there 
is that dynamic.
    Mr. Yoho. I wanted to come back to the South China Sea and 
what China is doing, because we see that threat. We see them 
pushing there, and we did back out of the TPP, however it was 
done. I think the biggest difference and, yes, there are some 
other disputes there. If you look at East Timor and Australia, 
that is a combined population of about 24-, 25 million people. 
I don't think a large part of the trade for the world goes 
through there. With China claiming the nine-dash lines as their 
area, I think this is a concern for all of us.
    I think they are playing it smart. They are not engaged all 
over the world in conflicts as we are and as we have been. We 
are distracted. We have got the Middle East. We have got what 
is going on in North Korea. As you brought up, China has the 
biggest influence that could help resolve this problem. This is 
a problem that is not just our problem. This is not the Korean 
Peninsula problem or the Asia Pacific theater. This is a world 
problem. I agree with the Brigadier General that we don't want 
to go to war. We don't want to fight anybody. We just want to 
have, like I said in the beginning of this, develop economic 
and trade, and we all have a hand in national security with the 
way the world is today. That is something we all benefit from, 
and we all should work to strive to get that.
    So with that, does anybody else have any comments, 
questions, closing?
    Well, with that, I just want to tell you how much I 
appreciate you being here. I look forward to talking to you 
down the road and getting input from you. And if it is okay, we 
will reach out to you periodically.
    And with that, this meeting is going to adjourn. Thank you.
    [Whereupon, at 3:51 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         
	 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
	 
        
   
                                 [all]
</pre></body></html>
